Audit Report




OIG-11-102
SAFETY AND SOUNDNESS: Material Loss Review of Platinum
Community Bank
September 16, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Causes of Platinum Community Bank’s Failure ................................................ 3
       Unsafe and Unsound Affiliate Transactions............................................ 3

  OTS’s Supervision of Platinum Community Bank .............................................                   5
       OTS’s Eligibility Examination of TBW Did Not Include Contacts with
       State Regulators ................................................................................       7
       OTS Did Not Restrict the Use of FHLMC Escrow Deposits from TBW…… .                                      8
       OTS Did Not Take Timely Supervisory Action in 2009 ............................                         9
       Prompt Corrective Action ...................................................................           11
       OTS Internal Failed Bank Review ..........................................................             12

  Conclusion ................................................................................................. 13

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ......................................              14
  Appendix     2:      Background..........................................................................   17
  Appendix     3:      Management Response .........................................................          20
  Appendix     4:      Major Contributors to This Report ...........................................          21
  Appendix     5:      Report Distribution ................................................................   22

Abbreviations

  CEO                  chief executive officer
  FDIC                 Federal Deposit Insurance Corporation
  FHLMC                Federal Home Loan Mortgage Corporation
  MRBA                 matter requiring board attention
  OTS                  Office of Thrift Supervision
  PCA                  prompt corrective action
  PBI                  Platinum Bancshares, Inc
  Platinum             Platinum Community Bank
  ROE                  report of examination
  TBW                  Taylor, Bean and Whitaker Mortgage Corporation




                       Material Loss Review of Platinum Community Bank Report (OIG-11-102)                 Page i
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       September 16, 2011

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our review of the failure of
                       Platinum Community Bank (Platinum), of Rolling Meadows, Illinois,
                       and the Office of Thrift Supervision’s (OTS) supervision of the
                       institution. We are providing the results of this review for your
                       information since the Office of the Comptroller of the Currency
                       (OCC) assumed regulatory responsibilities for thrifts pursuant to
                       P.L. 111-203. OTS closed the thrift and appointed the Federal
                       Deposit Insurance Corporation (FDIC) as receiver on
                       September 4, 2009. Section 38(k) of the Federal Deposit Insurance
                       Act mandated this review because of the magnitude of the thrift’s
                       estimated loss 1 to the Deposit Insurance Fund. 2 As of September
                       13, 2011, FDIC estimated that the loss would be $49.5 million.
                       FDIC also estimated that Platinum’s failure resulted in a loss of
                       $704,000 to FDIC’s Transaction Account Guarantee Program.

                       The objectives of our review were to determine the causes of the
                       thrift’s failure; assess OTS’s supervision of the thrift, including
                       implementation of the prompt corrective action (PCA) provisions of
                       section 38; and make recommendations for preventing any such
                       loss in the future. To accomplish these objectives, we reviewed the
                       supervisory files and interviewed key officials involved in the
                       regulatory enforcement matters. We conducted fieldwork at OTS’s

1
  At the time of the failure, Section 38(k) defined a loss as material if it exceeded the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines
a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Definitions of certain terms, which are underlined where first used in this report, are available in
OIG-11-065, Safety and Soundness: Material Loss Review Glossary (April 11, 2011). That document is
available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.


                       Material Loss Review of Platinum Community Bank Report (OIG-11-102)          Page 1
                        headquarters in Washington, D.C.; OTS’s regional office in
                        Chicago, Illinois; and at the bank headquarters in Rolling Meadows,
                        Illinois. We also interviewed personnel at FDIC's Division of
                        Resolutions and Receivership. Appendix 1 contains a more detailed
                        description of our objectives, scope, and methodology. Appendix 2
                        contains background information on Platinum. Appendix 3 is OCC’s
                        response to this report.

                        In brief, our review found that Platinum failed because of its unsafe
                        and unsound affiliate transactions with Taylor, Bean and Whitaker
                        Mortgage Corporation (TBW) in July 2009. TBW acquired Platinum
                        in July 2008. About a year later, TBW began to infuse large
                        amounts of its Federal Home Loan Mortgage Corporation (FHLMC) 3
                        escrow deposits 4 into Platinum and, using those same deposits,
                        ordered the thrift to purchase TBW mortgage loans. This practice is
                        considered unsafe and unsound. In regard to supervision, OTS did
                        not (1) perform a key examination procedure when assessing
                        TBW’s eligibility to assume ownership of Platinum, (2) restrict
                        Platinum’s use of TBW FHLMC escrow deposits, and (3) take
                        forceful and immediate action to stop Platinum from purchasing
                        additional mortgage loans with the FHLMC escrow deposits in
                        July 2009 after it first learned about the practice.

                        Our review of Platinum also revealed certain matters that were
                        referred to the Treasury Inspector General’s Office of
                        Investigations. It should be noted that on June 30, 2011, the
                        former chairman and owner of TBW was sentenced to 30 years in
                        prison and ordered to forfeit approximately $38.5 million for his
                        role in a more than $2.9 billion fraud scheme that contributed to
                        the failure of TBW and Colonial Bank, Montgomery, Alabama,
                        which was regulated by the Alabama State Banking Department
                        and FDIC. The sentencing occurred after a federal jury found the
                        former chairman and owner guilty of 14 counts, including bank

3
  FHLMC, also called Freddie Mac, was chartered by Congress in 1970 with a public mission to stabilize
the nation's residential mortgage markets and expand opportunities for homeownership and affordable
rental housing. Its statutory mission is to provide liquidity, stability and affordability to the U.S. housing
market. FHLMC participates in the secondary mortgage market by purchasing mortgage loans and
mortgage-related securities for investment and by issuing guaranteed mortgage-related securities.
FHLMC is operating under a conservatorship that began on September 6, 2008, conducting its business
under the direction of the Federal Housing Finance Agency.
4
  An escrow deposit is a trust account held in a borrower's name to pay obligations such as property
taxes and insurance premiums.


                        Material Loss Review of Platinum Community Bank Report (OIG-11-102)             Page 2
             fraud, on April 19, 2011. The TBW official and his co-conspirators
             engaged in a scheme that misappropriated more than $1.4 billion
             from Colonial Bank’s Mortgage Warehouse Lending Division in
             Orlando, Florida, and approximately $1.5 billion from Ocala
             Funding, a mortgage lending facility controlled by TBW. The fraud
             scheme contributed to the failures of Colonial Bank and TBW. Six
             other individuals pled guilty and have been sentenced from three
             months to eight years in prison for their roles in the fraud scheme.

             In light of the fact that OTS functions transferred to other federal
             banking agencies on July 21, 2011, we are not making any new
             recommendations to OTS as a result of our material loss review of
             Platinum. We provided OCC with a draft of this report for its
             review. In a written response, which is included as appendix 3,
             OCC did not provide specific comments on the report contents. We
             also received technical comments regarding our report from former
             OTS officials who are now employed by OCC. We have
             incorporated those comments into our report as we deemed
             appropriate.


Causes of Platinum Community Bank’s Failure
             Before TBW acquired Platinum in July 2008, the thrift had been
             unprofitable since opening in 1999. By late 2007, Platinum had a
             CAMELS composite rating of 4 and OTS issued a troubled
             condition letter and cease and desist (C&D) order related to the
             thrift’s failed mortgage banking activities. In conjunction with
             TBW’s acquisition of Platinum, OTS approved a new business plan
             which included the infusion of TBW FHLMC escrow deposits into
             the thrift. However, the unsafe and unsound use of those escrow
             deposits—to buy TBW mortgage loans during July 2009—caused
             Platinum’s failure.

             Unsafe and Unsound Affiliate Transactions

             TBW filed a change in control application to acquire Platinum’s
             holding company, Platinum Bancshares, Inc (PBI), and Platinum in
             February 2008. OTS approved the application in June 2008. As
             part of the acquisition transition, TBW replaced Platinum’s CEO,
             and TBW’s chairman and majority owner was elected chairman of
             Platinum’s board of directors.


             Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 3
As part of a business plan submitted to OTS in February 2008,
TBW advised that $5 million of its FHLMC escrow deposits would
be transferred to the thrift in December 2008 and another
$5 million would be transferred in June 2009. However, an
October 2008 OTS full scope examination of Platinum found that
Platinum began receiving FHLMC escrow deposits from TBW in
October 2008 and that by October 31, 2008, the balance of
escrow deposits had reached $38.7 million.

On July 2, 2009, Platinum purchased $198 million in TBW loans,
using FHLMC escrow deposits that had been transferred from
TBW. Platinum received additional FHLMC escrow deposits from
TBW, totaling $210 million received in July 2009. From
July 15, 2009, through July 31, 2009, Platinum continued to use
these and other funds to purchase an additional $292 million in
loans from TBW. In total, Platinum purchased $481 million in TBW
mortgage loans during July 2009. There were two very unusual
aspects to these purchases. First, Platinum purchased a significant
amount of the loans with FHLMC escrow deposits TBW transferred
into Platinum’s escrow clearing account with Colonial Bank.
Second, the loan purchases lacked signed agreements with all
parties involved.

On August 3, 2009, OTS notified Platinum that it was in troubled
condition and issued a supervisory directive instructing TBW to
repurchase, by August 4, 2009, any loans originated in its name
held on Platinum’s books. TBW management advised OTS that it
did not have the financial resources to repurchase the loans. In
addition, FHLMC suspended TBW as an approved originator of
FHLMC loans. On August 13, 2009, FHLMC informed OTS that it
planned to request the return of the $210 million in escrow
deposits held by Platinum.

On August 14, 2009, the Alabama State Banking Department
closed Colonial Bank and appointed FDIC as receiver. Colonial Bank
was TBW's primary warehouse lender and custodian for those




Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 4
                       loans that either TBW or Platinum originated and/or serviced itself. 5
                       On August 24, 2009, TBW filed a Chapter 11 bankruptcy petition
                       in Florida.

                       On September 1, 2009, FHLMC directed Platinum to transfer
                       $210 million in escrow deposits that it received from TBW to
                       another depository institution by September 8, 2009. Because
                       Platinum could not sell the loans back to TBW, it lacked sufficient
                       liquidity to make the transfer. In addition, Platinum was unable to
                       sell the loans to third parties because FDIC, as Colonial Bank’s
                       receiver, had possession of the loan files. FDIC could not release
                       the loans due to a temporary restraining order related to Colonial
                       Bank’s lending activities and as Colonial Bank’s receiver, FDIC had
                       a fiduciary responsibility to resolve loan ownership issues. On
                       September 4, 2009, OTS closed Platinum and placed it into FDIC
                       receivership.


OTS’s Supervision of Platinum Community Bank
                       OTS’s supervision of Platinum did not prevent a material loss to the
                       Deposit Insurance Fund. OTS did not (1) perform a key task when
                       it examined TBW’s eligibility to acquire Platinum Bancshares, Inc
                       (PBI) and Platinum; (2) restrict Platinum’s use of the FHLMC
                       escrow deposits from TBW; and (3) upon learning of Platinum’s
                       July 2, 2009, loan purchases using the escrow deposits, take
                       immediate action to prevent subsequent loan purchases.

                       Table 2 summarizes the results of OTS’s full-scope safety and
                       soundness and limited-scope examinations of Platinum from 2007
                       until the thrift’s closure. 6 Generally, matters requiring board
                       attention (MRBA) represent the most significant items reported in
                       ROEs requiring corrective action.


5
  On August 14, 2009, the Alabama State Banking Department closed Colonial Bank and named FDIC
as receiver. FDIC OIG conducted a material loss review of Colonial Bank and determined Colonial failed
due to a liquidity crisis brought on by (1) bank management’s failure to implement adequate risk
management practices, (2) deficiencies in loan underwriting, credit administration, and risk analysis and
recognition; and (3) an alleged fraud affecting its mortgage warehouse lending operation. Material Loss
Review of Colonial Bank, Montgomery, Alabama, Report No. MLR-10-031 (April 23, 2010)
6
  OTS conducted its examinations and performed off-site monitoring of Platinum in accordance with the
timeframes prescribed in the OTS Examination Handbook.


                       Material Loss Review of Platinum Community Bank Report (OIG-11-102)         Page 5
           Table 2: Summary of OTS’s Examinations and Enforcement Actions for Platinum

                                                   Examination Results
Date started/   Assets (in                                   Number of       Enforcement
                                                  Number of
completed        millions)     CAMELS rating                  corrective     actions
                                                   MRBAs
                                                               actions
                                                                             Troubled
7/30/2007                                                                    condition letter,
10/01/2007                                                                   9/26/2007;
                  $109           4/444522             12           12
Full-scope                                                                   cease and desist
examination                                                                  order,
                                                                             12/20/2007
10/31/2007
11/20/2007
Limited-           N/A               N/A               -            -              None
scope
examination
3/17/2008
3/27/2008
Limited-           N/A               N/A               -            -              None
scope
examination
7/28/2008
8/27/2008
Limited-           N/A               N/A               -            -              None
scope
examination
10/27/2008
                                                                             Memorandum of
1/15/2009
                   $79           3/333522              6           19        understanding,
Full-scope
                                                                             3/18/2009
examination
                                                                             Supervisory
7/13/2009                                                                    directive letter,
Limited-        Not                                                          7/31/2009;
                              No report issued         -            -
scope           completed                                                    troubled
examination                                                                  condition letter,
                                                                             8/3/2009
8/5/2009
8/5/2009                                                                     Cease and desist
Limited-          $148           5/555555              -            -        order,
scope                                                                        8/21/2009
examination
Source: OTS




           Material Loss Review of Platinum Community Bank Report (OIG-11-102)          Page 6
OTS’s Eligibility Examination of TBW Did Not Include Contacts with
State Regulators

As discussed above, TBW filed a change in control application to
acquire Platinum’s holding company, PBI, and Platinum in
February 2008. OTS performed an eligibility examination of TBW
from February 25 to April 28, 2008, and approved TBW’s
application on June 24, 2008. The purpose of the eligibility
examination was to obtain and analyze critical information
regarding TBW's financial condition, operating practices, and risk
exposure related to the proposed acquisition. In evaluating TBW’s
change in control application to acquire PBI and Platinum, OTS also
considered the likely and potential effects of the acquisition on
Platinum with regard to its safety and soundness rating (CAMELS)
and compliance requirements. Based on its review, OTS concluded
that TBW was a capably managed, successful company with
conservative and sound mortgage banking practices.

OTS guidance on conducting eligibility examinations required it to
coordinate with other applicable agencies during the planning and
scoping phase of the examination. It also required the
examiner-in-charge to obtain the applicant’s two most recent
examination reports from other applicable regulatory agencies,
including state agencies.

Contrary to its guidance on conducting eligibility examinations,
OTS did not contact the state mortgage banking regulators that
licensed TBW and monitored its risk management practices. Had it
done so, OTS would likely have learned about the following
examinations that were being conducted at the same time as its
eligibility examination. While the states’ examinations were
on-going at the time of OTS’s consideration of TBW’s application,
this was a missed opportunity for OTS to inquire about any
preliminary findings.

The Kentucky Department of Financial Institutions began an
examination of TBW in January 2008. The examination found that
TBW funded numerous loans over a 1-year period that were
brokered by unlicensed mortgage loan brokers and originated by
unregistered loan officers. On August 8, 2008, as a result of these
findings, TBW agreed to pay $150,000 in fines.


Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 7
TBW was the subject of a multistate examination that included
mortgage regulators from Arizona, Georgia, Idaho, Illinois,
Massachusetts, Mississippi, New Jersey, North Carolina,
Pennsylvania, Vermont, and the District of Columbia. The
examination, which began in March 2008, identified numerous
issues related to TBW’s regulatory compliance and business
practices, including evidence of fraudulent activity, evidence of risk
disregarded or unrecognized by TBW underwriters, and violations
of TBW’s own underwriting guidelines. Given the seriousness of
the findings, the regulators recommended significant regulatory
supervision of TBW. On June 22, 2009, TBW reached a settlement
agreement with the state regulators and paid $9 million in fines.

We discussed the scope of the eligibility examination with OTS
management and examiners. They acknowledged that the other
regulators should have been contacted and the information
regarding their examinations of TBW considered.

OTS Did Not Restrict the Use of FHLMC Escrow Deposits from TBW

OTS became aware of TBW’s intent to transfer FHLMC escrow
deposits to Platinum when TBW submitted its business plan to OTS
in conjunction with its change in control application in February
2008. As discussed above, Platinum received FHLMC escrow
deposits from TBW sooner and in larger amounts than its 2008
through 2010 business plan stated. As a result, Platinum’s total
assets increased from $78.5 million to $111.6 million, or
42 percent, during October 2008. The growth reduced Platinum’s
Tier 1 capital ratio from 9.26 percent on September 30, 2008 to
7.19 percent on October 31, 2008, falling below Platinum’s self
imposed minimum Tier 1 capital ratio of 7.5 percent. Additionally,
the ROE for the October 27, 2008, examination noted that
Platinum lacked a proper set of policies and procedures to manage
the escrow clearing account. OTS included an MRBA in this ROE
that required Platinum’s board of directors to review and approve
the business plan and to specifically address the substantial
increase in FHLMC escrow deposits. OTS also directed the board to
establish minimum acceptable capital ratios, based on the risk in
the bank’s balance sheet; and to ensure there is a method to
monitor and maintain capital in excess of the limits on a daily basis.




Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 8
Platinum submitted a new business plan to OTS on June 5, 2009,
which specifically stated Platinum intended to use FHLMC escrow
deposits it received from TBW to purchase loans. Although OTS
never approved the business plan, according to OTS
documentation, an OTS assistant regional director discussed the
plan with TBW’s CEO at a June 23, 2009, meeting. At that
meeting, the CEO was told that the business plan was
unacceptable because of concerns regarding (1) transactions with
affiliates, (2) growth projections, and (3) the accounting for
combining TBW mortgage origination operations into Platinum.
When we asked the OTS official whether Platinum’s intent to
purchase loans with the FHLMC escrow deposits was discussed at
the meeting, she told us that that she could not recall that
particular piece of the discussion. She also stated that the
comments made to TBW’s CEO about the business plan were
preliminary comments and that she told Platinum management OTS
needed more time to review the business plan.

In the end, Platinum purchased $481 million in TBW loans using, in
part, FHLMC escrow deposits transferred to Platinum by TBW. We
believe OTS should have strongly objected, in writing, to Platinum
that the purchase of loans was not an acceptable use of FHLMC
escrow deposits.

In reviewing OTS’s examination handbook, we noted a lack of examiner
guidance regarding the review of escrow deposits.

OTS Did Not Take Timely Supervisory Action in July 2009

On July 2, 2009, Platinum purchased $198 million in loans made in
TBW’s name using FHLMC escrow deposits transferred by TBW
into Platinum’s escrow clearing account. The transaction on that
day constituted an unsafe and unsound practice because it more
than doubled the thrift’s asset size and reduced its capital ratios.
Additionally, the purchase of mortgage loans with FHLMC escrow
deposits did not comply with Platinum’s obligations under the
applicable FHLMC seller/servicer guide. In this regard, the FHLMC
seller/servicer guide states that custodial account funds may only




Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 9
                         be invested in time deposits or in federal funds that mature within
                         7 days of the date of the deposit. 7

                         On July 13, 2009, during an OTS limited-scope examination,
                         Platinum’s president informed an onsite OTS examiner of the
                         FHLMC escrow deposit transfer and July 2nd loan purchase. With
                         that information, the examiner notified the OTS assistant regional
                         director of the transaction by e-mail the same day. The examiner’s
                         email stated that (1) the bank grew significantly in July, from about
                         $120 million to about $300 million, significantly exceeding the
                         growth called for in its business plans; (2) FHLMC had recently
                         approved Platinum as an escrowee of custodial funds; (3) Platinum
                         had received about $150 million in interest-free escrow funds from
                         TBW; and (4) Platinum had purchased about $200 million in loans
                         from TBW. In response to this e-mail, the examiner was directed to
                         gather more information on the transaction.

                         On July 17, 2009, in an e-mail, the OTS assistant regional director
                         told the onsite examiner that she had had a conversation with the
                         TBW CEO about the July 2nd transactions. According to that e-mail,
                         the TBW CEO told the OTS official that the TBW chairman of the
                         board authorized the transaction and he (the TBW CEO) was
                         uncertain whether Platinum had obtained the proper loan
                         documentation. Again, the OTS official instructed the examiner in
                         the e-mail to gather more information.

                         On July 20, 2009, Platinum’s chief financial officer told the OTS
                         onsite examiner that loan purchases using FHLMC escrow deposits
                         were continuing. The examiner told us that she notified her field
                         manager that same day. Between July 15 and July 31, 2009,
                         while OTS was onsite at the thrift, Platinum purchased an
                         additional $292 million in TBW loans using, in part, the FHMLC
                         escrow deposits received from TBW.

                         The OTS field manager told us that he did not recall which day he
                         told the assistant regional director about the ongoing loan
                         purchases. The OTS assistant regional director told us that she
                         recalled being told by the field manager on July 30, 2009, that the
                         loan purchases were ongoing. We asked the OTS official whether


7
    FHLMC Single-Family Seller/Servicer Guide


                         Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 10
                        she had considered enforcement action against TBW or Platinum in
                        response to the July 2nd loan purchases. The OTS official said that
                        more information about the July 2nd transactions was necessary
                        before issuing a directive.

                        On July 30, 2009, in an e-mail, OTS directed Platinum
                        management to discontinue funding loans that were in TBW’s
                        name. OTS issued a supervisory directive 8 to Platinum on
                        July 31, 2009, ordering Platinum to cease all further purchases of
                        TBW loans until otherwise notified by OTS. According to the
                        directive, OTS had serious concerns about the July 2nd transactions
                        and subsequent loan purchases because they (1) were not in
                        conformance with Platinum’s 2008 business plan, (2) were entered
                        into without appropriately signed agreements, and (3) may have
                        resulted in violations of transactions with affiliates regulations. 9

                        We believe OTS should have directed Platinum to cease further
                        loan purchases on July 13th when it first learned of the unsafe and
                        unsound practice. Furthermore, we found the lack of urgency on
                        the part of OTS officials alarming. Had OTS taken action on
                        July 13th, it may have prevented Platinum’s purchase of the
                        additional $292 million in loans and the loss to the Deposit
                        Insurance Fund as a result of the thrift’s failure may have been
                        lessened.

                        Prompt Corrective Action

                        The purpose of PCA is to resolve problems of insured depository
                        institutions with the least possible long-term loss to the Deposit
                        Insurance Fund. PCA requires federal banking agencies to take
                        certain actions when an institution’s capital drops below certain
                        levels. PCA also gives regulators flexibility to supervise institutions
                        based on criteria other than capital levels.

                        OTS did not implement PCA during its supervision of Platinum
                        which is not surprising given the rapid chain of events leading to its

8
  A supervisory directive is an informal enforcement action that directs a thrift to cease an activity or
take an affirmative action to remedy or prevent an unsafe or unsound practice.
9
  Sections 23A and 23B of the Federal Reserve Act (12 U.S.C. 371c, 371c–1) establish certain
quantitative limits and other prudential requirements for loans, purchases of assets, and certain other
transactions between a member bank and its affiliates.


                        Material Loss Review of Platinum Community Bank Report (OIG-11-102)         Page 11
failure. As a result of the July 2009 loan purchases, OTS notified
Platinum in a letter dated August 3, 2009, that it was in troubled
condition. This letter informed Platinum of the restrictions
associated with its troubled condition status, which included
restrictions on growth, severance pay, and dividends.

OTS also issued a (C&D) order to Platinum on August 24, 2009.
The C&D order included a provision requiring Platinum to maintain
Tier 1 capital and total risk-based capital ratios (8 and 12 percent,
respectively) that were higher than PCA well-capitalized ratios (6
and 10 percent, respectively). Because of this requirement, the
C&D order stated that Platinum could not be deemed well-
capitalized for PCA purposes. In addition, the C&D order included
other provisions normally associated with PCA requirements for
undercapitalized banks.

OTS Internal Failed Bank Review

In accordance with its policy, OTS staff completed an internal review
to determine the causes of Platinum’s failure and evaluate OTS’s
supervision of the thrift. According to the review, which was released
on April 5, 2010, the direct cause of the thrift’s failure was significant
unauthorized transactions between TBW and Platinum. As a result of
these transactions, Platinum did not have sufficient funds to meet
FHLMC’s demand for the return of $210 million in custodial escrow
deposits that TBW had transferred to the thrift.

The review did not identify any weakness in OTS’s supervision of
Platinum and stated that OTS’s supervision of Platinum and TBW
was not a cause of the thrift’s failure. However, the review stated
that OTS’s eligibility examination and the application review of
TBW identified several potential risks in TBW’s
operations-specifically, TBW’s mortgage-servicing rights
concentration and liquidity risk profile. According to the review,
OTS did not follow up with TBW or require that TBW take action
on these risk elements before its June 24, 2008, approval of
TBW’s application to acquire control of PBI and Platinum. The
internal review did not include any recommendations.

As discussed in this report, we believe that OTS’s supervision was
not timely nor sufficiently forceful based on when OTS first learned


Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 12
             of the TBW loan purchases in early July 2009. More timely and
             direct action should have been taken to stop Platinum from making
             further TBW loan purchases. With respect to the eligibility
             examination, we found that OTS also did not contact state
             regulatory agencies before approving TBW, a significant omission
             in the examination.


Conclusion
             Our material loss review of Platinum revealed two significant
             deficiencies in supervision. First, OTS should have exercised
             greater due diligence in determining TBW’s eligibility to acquire the
             thrift. The in-progress examinations of TBW by various state
             regulatory agencies may have provided important leads, but OTS
             did not contact the agencies. Second, Platinum is a clear example
             of the need for regulators to sometimes act very swiftly and
             forcefully to stop an institution from engaging in a practice that is
             clearly unsafe and unsound. In the case of Platinum, the additional
             two weeks of buying TBW loans likely increased the eventual loss
             to the Deposit Insurance Fund.

             Pursuant to P.L. 111-203, the functions of OTS transferred to
             other federal banking agencies on July 21, 2011. Accordingly, we
             are not making any new recommendations to OTS as a result of
             our material loss review of Platinum.

                                         * * * * *

             We appreciate the courtesies and cooperation provided to our staff
             during the audit. If you wish to discuss the report, you may
             contact me at (202) 927-0384 or Theresa Cameron, Audit
             Manager, at (202) 927-1011. Major contributors to this report are
             listed in appendix 4.



             /s/
             Jeffrey Dye
             Audit Director




             Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 13
                         Appendix 1
                         Objectives, Scope, and Methodology




                         We conducted this material loss review of Platinum Community
                         Bank (Platinum) of Rolling Meadows, Illinois, in response to our
                         mandate under section 38(k) of the Federal Deposit Insurance
                         Act. 10 This section provides that if the Deposit Insurance Fund
                         incurs a material loss with respect to an insured depository
                         institution, the inspector general for the appropriate federal banking
                         agency is to prepare a report to the agency that

                         •    ascertains why the institution’s problems resulted in a material
                              loss to the insurance fund;
                         •    reviews the agency’s supervision of the institution, including its
                              implementation of the prompt corrective action provisions of
                              section 38; and
                         •    makes recommendations for preventing any such loss in the
                              future.

                         At the time of Platinum’s failure on September 4, 2009, section
                         38(k) defined a loss as material if it exceeded the greater of
                         $25 million or 2 percent of the institution’s total assets. We
                         initiated a material loss review of Platinum based on the loss
                         estimate by the Federal Deposit Insurance Corporation (FDIC),
                         which was $114.3 million on September 4, 2009. As of
                         September 13, 2011, FDIC estimated that the loss to the Deposit
                         Insurance Fund would be $49.5 million. FDIC also estimated that
                         the thrift’s failure resulted in a loss of $704,000 to the Transaction
                         Account Guarantee Program.

                         Our objectives were to determine the causes of Platinum’s failure;
                         assess the Office of Thrift Supervision’s (OTS) supervision of
                         Platinum, including implementation of the PCA provisions of
                         section 38; and make recommendations for preventing such a loss
                         in the future. To accomplish our review, we conducted fieldwork at
                         OTS’s headquarters in Washington, D.C.; it’s Central Region Office
                         in Chicago, Illinois; and at the thrift, in Rolling Meadows, Illinois.
                         We also interviewed officials of FDIC’s Division of Resolutions and
                         Receivership. We conducted our fieldwork from November 2009
                         through May 2010.




10
     12 U.S.C. § 1831o (k).


                         Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 14
Appendix 1
Objectives, Scope, and Methodology




Due to the significant role that Taylor, Bean and Whitaker
Mortgage Corporation (TBW), who acquired Platinum’s holding
company (Platinum Bancshares, Inc.) in 2008, played in the failure
of Platinum, we included OTS’s supervision of TBW in the scope of
our work. To assess the adequacy of OTS’s supervision of
Platinum and TBW, we determined (1) when OTS first identified
the thrift’s safety and soundness problems, (2) the gravity of the
problems, and (3) the supervisory response OTS took to get the
thrift to correct the problems. We also assessed whether OTS
(1) might have discovered problems earlier; (2) identified and
reported all the problems; and (3) issued comprehensive, timely,
and effective enforcement actions that dealt with any unsafe or
unsound activities. Specifically, we performed the following work:

•   We determined that the period covered by our audit would be
    from July 1, 2003, through the thrift’s failure on
    September 4, 2009. This period included five full-scope safety
    and soundness examinations and eight limited-scope
    examinations of Platinum. This period also included an eligibility
    examination and one full-scope holding company examination of
    TBW.

•   We reviewed OTS’s supervisory files and records for Platinum
    from 2003 through 2009 and for TBW from 2008 through
    2009. We analyzed examination reports, supporting
    workpapers, and related supervisory and enforcement
    correspondence. We performed these analyses to gain an
    understanding of the problems identified, the approach and
    methodology OTS used to assess the thrift’s and holding
    company’s condition, and the regulatory action used by OTS to
    compel thrift and holding company management to address
    deficient conditions. We did not conduct an independent or
    separate detailed review of the external auditor’s work or
    associated workpapers other than those incidentally available
    through the supervisory files.

•   We interviewed and discussed various aspects of the
    supervision of the thrift and holding company with OTS officials
    and examiners to obtain their perspectives on the thrift’s and
    holding company’s condition and the scope of the examinations.




Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 15
                        Appendix 1
                        Objectives, Scope, and Methodology




                            We also interviewed an FDIC examiner who was responsible for
                            monitoring Platinum for federal deposit insurance purposes.

                        •   We selectively reviewed Platinum’s documents that had been
                            taken by FDIC and inventoried by FDIC Division of Resolutions
                            and Receivership personnel. From FDIC’s inventory list, we
                            identified documents for our review that were most likely to
                            shed light on the reasons for the thrift’s failure and OTS’s
                            supervision of the institution.

                        •   We assessed OTS’s actions based on its internal guidance and
                            the requirements of the Federal Deposit Insurance Act. 11

                        •   We reviewed OTS’s internal failed bank review report of
                            Platinum, dated April 5, 2010.

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




11
     12 U.S.C. § 1811 et seq.


                        Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 16
                          Appendix 2
                          Background




                          Platinum Community Bank History

                          Platinum Community Bank (Platinum) was established as a federally
                          chartered stock institution on March 1, 1999. It was wholly owned
                          by Platinum Bancshares, Inc. (PBI), a nondiversified, publicly
                          traded, unitary thrift holding company. 12

                          Platinum’s home office was in Rolling Meadows, Illinois, and its
                          operations included mortgage, home equity, consumer and
                          commercial real estate lending. In June 2001, Platinum formed
                          Platinum Direct Funding Corporation, a service corporation, to
                          perform mortgage banking operations. By December 2002,
                          Platinum transferred its mortgage banking operations to Platinum
                          Direct Funding, a newly formed division of Platinum, and Platinum
                          Direct Funding Corporation was effectively closed. PBI also owned
                          Platinum Home Mortgage Corporation, and Platinum purchased
                          mortgage loans from the corporation for sale and for investment. In
                          July 2007, Platinum closed its mortgage banking operations. On
                          July 9, 2008, Taylor, Bean Whitaker Mortgage Corporation (TBW)
                          acquired 76 percent of PBI and gained control of Platinum.

                          From its beginning, Platinum lacked a successful business strategy
                          and experienced net operating losses in most reporting periods
                          throughout its existence. Before its acquisition by TBW, many of
                          Platinum’s problems resulted from its pursuit of business strategies
                          that were difficult to profitably implement and required strict
                          oversight by the board and its management team. After TBW
                          gained control of Platinum in July 2008, Platinum’s earnings
                          continued to suffer.

                          TBW developed a 2008-2010 business plan for Platinum that
                          depended to a great extent on affiliated transactions with TBW and
                          involved significant growth in residential mortgages, commercial
                          real estate loans, and mortgage-backed securities. Platinum failed
                          in September 2009 before the business plan could be fully
                          implemented.




12
     A unitary thrift holding company controls a single thrift.


                          Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 17
Appendix 2
Background




OTS Assessments Paid by Platinum

OTS funded its operations in part through semiannual assessments
on savings associations. OTS determined each institution’s
assessment by adding together three components reflecting the
size, condition, and complexity of an institution. OTS computed the
size component by multiplying an institution’s total assets as
reported on the thrift financial report by the applicable assessment
rate. The condition component is imposed on institutions that have
a 3, 4, or 5 CAMELS composite rating. OTS imposed a complexity
component if (1) a thrift administers more than $1 billion in trust
assets, (2) the outstanding balance of assets fully or partially
covered by recourse obligations or direct credit substitutes exceeds
$1 billion, or (3) the thrift services over $1 billion of loans for
others. OTS calculated the complexity component by multiplying
set rates times the amounts by which an association exceeds each
particular threshold. Table 4 shows the assessments that Platinum
paid OTS from 2003 through 2009.

Table 4: Assessments Paid by Platinum to OTS, 2003—2009
Billing Period             Exam Rating     Amount Paid
1/1/2003–6/30/2003               3              $19,300
7/1/2003–12/31/2003              3               18,136
1/1/2004–6/30/2004               3               26,118
7/1/2004–12/31/2004              3               29,085
1/1/2005–6/30/2005               3               32.934
7/1/2005–12/31/2005              3               30,401
1/1/2006–6/30/2006               3               30,345
7/1/2006–12/31/2006              3               31,371
1/1/2007–6/30/2007               4               32,127
7/1/2007–12/31/2007              4               29,654
1/1/2008–6/30/2008               3               34,976
7/1/2008–12/31/2008              3               40,118
1/1/2009–6/30/2009               3               32,552
7/1/2009–12/31/2009              5               32,898
Source: OTS


Number of OTS Staff Hours Spent Examining Platinum

Table 5 shows the number of OTS staff hours spent examining
Platinum from 2003 to 2009.
     


Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 18
Appendix 2
Background




Table 5: Number of OTS Hours Spent on Examining
         Platinum, 2003-2009
      Examination                Number of
       Start Date         Examination Hours
       7/28/2003                         960
       4/26/2004                         206
      10/28/2004                       1,191
       8/22/2005                          97
       3/27/2006                       1,206
       4/16/2007                         255
       7/30/2007                       1,447
      10/31/2007                          77
       2/25/2008                         N/A
       3/17/2008                         110
       7/28/2008                         186
      10/27/2008                       1,092
       11/3/2008                         N/A
       7/13/2009                         277
       8/4/2009                          N/A
       8/5/2009                           59
Source: OTS




Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 19
Appendix 3
Management Response




Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 20
Appendix 4
Major Contributors to This Report




Theresa Cameron, Audit Manager
Adelia Gonzales, Auditor
Carolyn Peyton, Program Analyst
Gerald Crispino, Special Agent
Gerald Kelly, Referencer




Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 21
Appendix 5
Report Distribution




Department of the Treasury

   Deputy Secretary of the Treasury
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner

Federal Deposit Insurance Corporation

   Acting Chairman
   Inspector General

U.S. Senate

   Chairman and Ranking Member
   Committee on Banking, Housing, and Urban Affairs

   Chairman and Ranking Member
   Committee on Finance

U.S. House of Representatives

   Chairman and Ranking Member
   Committee on Financial Services

U.S. Government Accountability Office

   Comptroller General of the United States




Material Loss Review of Platinum Community Bank Report (OIG-11-102)   Page 22
